      Department of Homeland Security




    FEMA Should Recover $48 Million of Public Assistance
      Grant Funds Awarded to Erie County, New York –
               Severe Weather October 2006




OIG-13-23 (Revised)                              March 2013

                                     OFFICE OF INSPECTOR GENERA L
                                           Dcpal1mcm orHomehmd Security




                                           March 29, 2013



ME MORANDU M FOR:                      MaryAnn Tierney
                                       Act ing Regiona l Adm inist rato r, Region II
                                       Federal Emer~nCYja7gem e n t Agency

FROM:                                 O.   MIChael8e~r~                               / _
                                      As~iSl ant I ns~QUieneflil                     V"C..._ _-
                                      Office of Emergency        Milnag~ment        Oversight

SUBJECT:                              FEMA ShouJd R~over $48 Million uf Public Assisforn:e GraM
                                      Funds Awarded to Erie County, New Vork - Severe WNther
                                      Ot;tobtf 2006
                                      FEMA Disaster Numb e r 1665-0R-NY
                                      Aud it Re port Numbe r OIG-B-B (Revised )

AttachE!d for your info rmation is our revi!il!d report, FEMA Should Recover $48 Million of
Public Asslstonce Grant Fund5 Aworded to fr/e County, New York - Severe Weather October
2006. Wt rels.sued the report to re5Pond to II Congr~ssional ret;uest that we clarify Erie
Coun ty's selection of a loca l contractOI that was not made within the ret;uired conle~t of
open competition regulations. Th~ revlslOll did not change the subst.1nc~ of the nnding or
the recommendation.

We audlltd Public A»istance funds awarded to Erie Co unty (County), In New York {public
Assistance Identificatio n Numbe r 029-99029-(0). Ou r audit objective was to determine
whether the County aceourlled for and upend~d Fede ral Eme rge ncy Managemerlt AllerlCY
(Fe MA) gra rlt fUrl ds ~ ceordin ll to Federa l regulations an d FEM A Il uid eli nes.

The New Yo rk SI31e Divisio n of Home lan d Se~urity an d Emerge ncy Services (HSES), a FE MA
grantee, awarded the Co urlly $55. 4 mil lion for damages ~ au ",d by a ~evere lake effecl snow
and ice storm thaI occurred in October 2006. Th e award provided 75 percent FEMA fund irlg
for 30 large and 10 sm all pmjem. 1 Our aud it covered the period October 12, 2006, through
August 11, 2012, ~nd included a reI/lew of 18 large projects totaling $53 million, or 96
percent of the total award {5ee b hibll fl., Schedule o f PmjectsAuditedl

We conducted thi~ performance audit betweerl February and August 2012 pursuarl t to the
in5pector General Act of 1978, as amended, and according to gerle rally accepted govemment

'Fl!(jeral ,eRu lllion. in ~fe<t.t tho tim. 01 the diSOlIII!1S!1 thf I. ' HO Pfojc<l th r~,hold it $59.700.
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based upon our audit objective. We believe that the evidence obtained provides
a reasonable basis for our findings and conclusions based upon our audit objective. We
conducted this audit according to the statutes, regulations, and FEMA policies and guidelines
in effect at the time of the disaster.

We interviewed FEMA, HSES, and County officials; reviewed judgmentally selected project
costs (generally based on dollar value); and performed other procedures considered
necessary to accomplish our objective. Accomplishing our audit objective did not include
assessing the adequacy of the County’s internal controls applicable to grant activities. We
did, however, gain an understanding of the County’s method of accounting for disaster-
related costs and its procurement policies and procedures.

                                       BACKGROUND

On October 12–13, 2006, the County experienced a severe lake effect snow and ice storm.
The storm was dubbed the “October Storm” and officially referred to by the National
Weather Service as “Lake Storm Aphid.” The October Storm dropped up to 2 feet of snow in
less than 12 hours, causing tree limbs possessing significant foliage to snap, taking down
power lines, and causing considerable damage throughout northern Erie County. The State
of New York declared a state of emergency for the counties affected by the storm and
requested FEMA aid. On October 24, 2006, President George W. Bush declared a major
disaster for Erie and the surrounding counties. The original disaster declaration limited the
period to 6 months for the County to incur reimbursable debris removal and cleanup costs.
The County, unable to complete the needed work, requested numerous time extensions.
The time extensions eventually expired on October 24, 2008, more than 2 years after the
original disaster.

                                     RESULTS OF AUDIT

Although the County accounted for FEMA grant funds on a project-by-project basis as
required by Federal regulations, it did not comply with Federal grant regulations and FEMA
guidelines when awarding contracts totaling $39.4 million of the $53 million we reviewed. In
addition, FEMA reimbursed the County $9 million for inadequately supported costs. Finally,
the County improperly charged $33,066 of administrative costs as direct costs, and included
$10,456 of duplicate costs within the claimed Emergency Operations Center (EOC) supply
costs. As a result, we question $48,465,416 of ineligible and unsupported costs claimed by
the County.




www.oig.dhs.gov                             2                                   OIG-13-23
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



Finding A: Contracting Practices Did Not Comply with Federal Procurement Regulations

The County awarded $39,391,260 in contracts in a manner that limited competition and
disregarded Federal contracting regulations. The County Executive directed the purchasing
department to award contracts giving preference to local contractors, but did not ensure the
process followed open competition and documentation requirements. The work contracted
for included vegetative debris removal and disposition, storm-damaged tree removal, and
the monitoring of these activities. As a result, we question these costs as detailed in table 1.

                  Table 1: Projects and Their Contracted Amounts
                                  Amount        Amount Not       Amount
                    Project     Contracted      Questioned*   Questioned
                       6          $ 769,196                       $ 769,196
                      208             812,306                        812,306
                      241             809,854                        809,854
                      242           1,667,633                      1,667,633
                      243           9,221,951                      9,221,951
                      244           1,031,546                      1,031,546
                      330           6,121,895                      6,121,895
                      342           2,244,165                      2,244,165
                      344           7,740,314                      7,740,314
                      485             202,689      $ 138,676          64,013
                      609           4,125,064        197,910       3,927,154
                      615           4,505,539                      4,505,539
                      645             475,694                        475,694
                                 $ 39,727,846      $ 336,586    $ 39,391,260

       *Amount Not Questioned column includes costs incurred from October 18, 2006, through
        October 21, 2006, using contracts the County had in place at the time of the disaster.

Federal procurement standards, 44 Code of Federal Regulations (CFR) 13.36, require grant
recipients to:

   •	 Perform procurement transactions in a manner providing full and open competition
      except under certain circumstances. (13.36(c))
   •	 Prepare a cost or price analysis in connection with every procurement action, 

      including contract modifications. (13.36(f)(1)) 

   •	 Take all necessary affirmative steps to assure that small businesses, minority firms,
      women’s business enterprises, and labor surplus area firms were used when possible.
      (13.36(e))
   •	 Not place arbitrary actions in the procurement process. (13.36(c)(1)(vii))

www.oig.dhs.gov                              3	                                    OIG-13-23
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   •	 Maintain records sufficient to detail the significant history of the procurement,
      including the rationale for the method of procurement, the basis for contractor
      selection, and basis for the contract price. (13.36(b)(9))

Full and Open Competition

The County’s bid evaluation process did not comply with Federal procurement regulations.
The County created a variety of unacceptable sole source and average bid methods for
pricing the contracts. For example, a senior County official said that for several of the
awards, the County computed an average or mean of the bids and awarded unit price
contracts for similar services, using the same rate for all the awards. Ultimately, not all of
the original bidders accepted the contract terms using this pricing method. The bidders on
the low end of this scale of bids received a windfall profit, whereas some of those at the
higher end of the scale chose not to accept the lower price, yet their bids still stayed in the
pool to calculate the mean price. The logic behind this method increased the cost that was
passed on to the Federal Government.

Cost or Price Analysis

The County provided no written evidence that it performed required cost or price analyses
demonstrating the reasonableness of the contract pricing, as required by 44 CFR 13.36(b)(9)
and 44 CFR 13.36(f)(1). The County provided only verbal statements of its use of an average
rate methodology. We confirmed the County’s statements regarding the computation of an
average rate; and we could, within reason, mathematically achieve the same average rates.
The County performs similar tasks (vegetation cleanup, trimming, removing hanging limbs,
etc.) with its own workforce and equipment on a normal basis and should have cost records
readily available. However, the County did not document a comparison of any of these
proposed rates to its own costs. No basis for reasonableness as determined by the County
exists. Therefore, we conclude that the County did not perform a cost or price analysis.

Affirmative Steps for Minority Firms, Women’s Business Enterprises, and Labor Surplus Area
Firms

The County failed to demonstrate the implementation of required affirmative steps to assure
minority firms, women’s business enterprises, and labor surplus area firms were used when
possible, as required by 44 CFR 13.36(e). The requirement for prime contractors to take
affirmative steps to use minority firms, women’s business enterprises, and labor surplus area
firms was particularly important in the County because of the shortage of qualified
contractors in the area. In many cases, winning local contractors ultimately subcontracted
the work to non-local subcontractors. The County could not provide us with evidence
showing the non-local subcontractors used local labor, minority firms, women’s business



www.oig.dhs.gov                              4	                                   OIG-13-23
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


enterprises, or labor surplus area firms2. Having a local company subcontract to a non-local
contractor does not achieve the intent of the legislation to put local people to work and keep
the dollars within the community.

No Arbitrary Actions

The County is prohibited from placing arbitrary actions in the procurement process, as per 44
CFR 13.36(c)(1)(vii). FEMA provided the County copies of the regulations, supporting
materials, and direct access to FEMA and HSES personnel during the initial stages of the
disaster recovery. Materials provided clearly explain the procurement process required for
Federal grant recipients. The County did not provide any written policies or procedures
memorializing the preference in selecting local contractors while keeping the open
competition principles set forth in the CFR or FEMA policies.

History and Rationale for Procurement Decisions

County officials said they spoke with FEMA to get acceptance prior to implementing the local
contracting decision. During the course of our audit, the County could not substantiate the
claim or provide the names of the FEMA officials who said that the County could disregard
the Code of Federal Regulations in awarding contracts. However, we did find a news
interview at the time of the disaster in which a FEMA spokeswoman would not say whether
the County’s decision to award contracts only to local vendors posed a problem. She did say
that the County needed to solicit bids, evaluate offers, and award contracts in compliance
with all of the applicable regulations. We could not verify many of the County
representations, nor ensure that proper measures were taken due to a lack of records.

Conclusion

We conclude that the County did not conduct the procurement transactions in a manner
providing full and open competition. As the County’s contracting practices did not comply
with Federal rules and regulations, we question $39,391,260 as ineligible contract costs.

County Response. County officials disagree with this finding. The current Director of
Purchasing said that the County followed its own contracting procedures during the disaster.
She also said that whenever County contracting procedures appeared to violate a Federal
rule or regulation, the County obtained and followed guidance provided by a FEMA
representative. For the contracts in question, she said she received verbal approval from
FEMA for the County’s actions. However, she could not get the FEMA representatives to
commit their approval to writing. In addition, she said she lost the notes and records of the
discussions she had with FEMA concerning this issue. The Director of Purchasing also said

2
 At the time of the disaster and storm clean up, the City of Buffalo, in Erie County, was a labor surplus area as
defined by the U.S. Department of Labor.

www.oig.dhs.gov                                      5                                            OIG-13-23
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


that restricting contracting to local firms did not cause FEMA to incur additional costs. She
said the County solicited bids before awarding the contracts and in some cases, it averaged
the bids and offered the average rate to any contractor who could accept the contract. For
example, for debris removal, the County offered a rate of $11.25 per cubic yard of debris to
all prospective contractors. The County said that the use of an average unit rate for similar
services and multiple contractors mitigates any harm to FEMA for noncompetitive
contracting and is a fair method of dealing with multiple contractors for the same service.

OIG Response. The County violated Federal contracting rules and regulations. A FEMA
representative cannot nullify Federal rules and regulations verbally or in writing. The County
provided no documentation of meetings with FEMA representatives. In addition, we found
no evidence that the use of a set rate per unit of service mitigates the impact of
noncompetitive contracting.

Finding B: Unsupported Claimed Costs

The County claimed unsupported costs of $9,030,634 under projects 600, 614, 628, and 675.

                      Table 2: Unsupported Costs by Project
                                            Amount
                            Project        Questioned
                              600             $5,447,640
                              614              1,388,830
                              628              2,190,301
                              675                  3,863
                                              $9,030,634

Federal regulation 2 CFR 225, Cost Principles for State, Local, and Indian Tribal Governments,
Appendix A, C.1.j., states that a cost must be adequately documented to be allowable under
Federal awards. Federal regulation 44 CFR 13.20(b)(6) further states that accounting records
must be supported by such source documentation as canceled checks, paid bills, payrolls,
time and attendance records, contract and subgrantee award documents, and so on. In
addition, 44 CFR 206.223(a)(1) states that an item of work must be required as a result of a
major disaster event to be eligible for financial assistance. The County did not provide
adequate documentation to show that the amounts charged to projects 600, 614, 628, and
675 contain expenditures allowable under the PA program. Further, the County could not
produce a cost summary or reconciliation that could support the amounts questioned. The
project worksheets simply described these costs as estimates. In addition, the interim
summaries provided by the County showed these costs as estimates, and the projects as not
completed. The County never performed a final reconciliation. Finding E: Accounting and
Grant Management, discusses this issue further.


www.oig.dhs.gov                             6                                   OIG-13-23
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


County Response. The County disagreed with this finding. The County stated that the
records for projects 600, 614, 628, and 675 were lost.

OIG Response. Because Federal cost principles state that a cost must be adequately
documented to be allowable under Federal awards, the County will have to provide invoices
and canceled checks to document that it incurred and paid the costs it claimed. If the
County can produce records documenting the amounts in question, the costs could be
allowable.

Finding C: Administrative Costs Charged Direct

The County claimed ineligible administrative costs of $33,066 under project 675. These
expenditures apply to activities not specifically accountable to a work project.

Per FEMA 322, Public Assistance Guide, October 1999, the Robert T. Stafford Disaster Relief
and Emergency Assistance Act, Public Law 93-288, as amended, 42 U.S.C. 5121, et. seq.,
stipulates that each grant recipient be provided an administrative allowance to meet the
cost of administering the grant. The administrative allowance for subgrantees covers direct
and indirect costs incurred in requesting, obtaining, and administering public assistance.

FEMA denied the County’s initial claim of $45,000 for project 675 consultant fees. The
County appealed the denial and FEMA subsequently authorized the $45,000 claim provided
the County demonstrates the eligibility of the expenditures. During our subsequent review
of the invoices, we determined that a portion of the claimed costs are administrative in
nature and therefore not eligible.

Of the $45,000 in claimed costs, the County paid $33,066 to a consultant to review and
research projects and other issues for the County. The consultant fee is supposed to be part
of the administrative allowance. We determined the remaining $11,934 as eligible costs.

County Response. The County said that the letter reinstating the funding made the cost
eligible.

OIG Response. The County misunderstood FEMA’s response to the appeal. FEMA authorized
the payment of the non administrative portion of the $45,000 claim. The claim contained
$33,066 of administrative expenses.

Finding D: Duplicate Costs Included in the EOC Supplies Costs

The County claimed duplicate costs of $10,456 under project 675 as part of an equipment
usage claim.



www.oig.dhs.gov                            7                                   OIG-13-23
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


The County claimed equipment usage using FEMA’s equipment rates. The County also
claimed the repair and maintenance costs for that same equipment. Federal regulation 44
CFR 206.228(a)(1)(iii) states that when there are no established rates, reimbursement for
ownership and operation costs of applicant-owned equipment will be done through FEMA
equipment rates. In addition, FEMA Public Assistance Guide, FEMA 322, restates the above
and adds that the work performed with the equipment must be eligible work. Equipment
usage rates are based on either a mileage or hourly rate, which includes costs of fuel,
insurance, depreciation, and maintenance. Given that FEMA’s equipment rates are
developed to include maintenance and general supplies, by claiming both the rate and
expense, the County is being reimbursed twice.

We question $10,456 as follows:

   •	 Vehicle and Small Motor Repairs and Maintenance. The County claimed $8,470 for
      repairs on two pickup trucks, gasoline, oil, fuel stabilizer, repairs on a small motor,
      and two new tires.

   •	 Aviation Repairs. The County claimed $1,986 for repairs to a small airplane used to
      survey the disaster recovery efforts.

By claiming the costs of equipment repair as well as the equipment usage rate, the County
received duplicate reimbursement. We determined that the County submitted the duplicate
charges because it apparently misunderstood FEMA disaster recovery regulations.

County Response. The County did not respond to this finding.

Finding E: Accounting and Grant Management

The County and HSES did not exercise due prudence over FEMA’s $55.4 million disaster
assistance grant. The County’s internal report on recordkeeping, overtime, and financial
issues made these same observations. While the County is ultimately responsible for its
recordkeeping and the costs incurred; HSES did not provide adequate day-to-day
management or monitor subgrant activity.

The County’s 2006 A-133 Audit and the County’s Comptroller September 2010 “Review of
the Erie County Storm Fund” identified recordkeeping errors with the accounting of
reimbursements from FEMA. The 2006 A-133 Audit reported that the County did not follow
generally accepted accounting principles, which resulted in an approximately $5,000,000
timing error. The County’s 2010 Comptroller report disclosed that the County’s
reimbursements from FEMA and HSES exceeded the County’s incurred costs by $1.4 million.




www.oig.dhs.gov                             8	                                   OIG-13-23
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


We could not reconcile all claimed project costs with the actual costs incurred. We did not
report this as a separate finding within this report but included it as questioned costs,
reported under other FEMA and Federal criteria. To resolve this issue, we interviewed the
then Deputy Commissioner of Emergency Services, responsible for maintaining the disaster
accounting records. He did not adequately explain why his recordkeeping of the costs
stopped before project finalization. Instead, what he provided showed that the County
submitted estimated costs to HSES for reimbursement. Thus, we concluded that the County
did not complete all cost reconciliations for all of the final individual projects.

The County’s post-disaster change in its overtime policy resulted in the County improperly
billing FEMA $3.6 million. FEMA will reimburse overtime costs of regular employees in
accordance with the County’s pre-disaster personnel policy. Per FEMA 322 Public Assistance
Guide, normal procedures must not be altered because of the potential for reimbursement
from Federal funds. The County legislature passed a special ordinance, early in the disaster
recovery, to allow overtime payment to certain employees previously barred from this
benefit. The County’s Comptroller took exception to the legislative change. Two reports the
County Comptroller’s office issued, “Review of the Erie County Storm Fund” and “Erie County
Department of Personnel Audit of Payroll Transactions for the Period January 1, 2007 –
December 31, 2008,” expressed concern over the County’s payroll recordkeeping and this
policy change. However, in support of the overtime policy change, administration officials
said that the County needed to set a precedent on the payment of overtime in disaster
situations. They said that a failure to do so would place future overtime reimbursements in
jeopardy. In addition, they said that since FEMA will reimburse overtime for regular
employees, the County would be foolish not to pay it.3 Due to the County’s inability to
provide adequate support, finding B captures this labor practice within the total questioned
amount.

HSES should have better managed its grant responsibilities and should have been aware of
the County’s need for additional support. Federal regulation 44 CFR 13.37(a)(2) requires the
grantee to ensure that subgrantees know of the requirements imposed on them by Federal
regulations. Further, 44 CFR 13.40(a) requires the grantee to manage the day-to-day
operations of subgrant activity and monitor subgrant activity to assure compliance with
applicable Federal requirements. In July 2005, the New York State Legislature and Governor
created the Erie County Fiscal Stability Authority (ECFSA) to monitor the County’s finances,
stating, “a condition of fiscal stress exists.” On November 3, 2006, ECFSA declared a “control
period,” which remains in effect to date, allowing it to establish wage and/or hiring freezes
and set maximum levels of County spending. Further, the FEMA-State Agreement for this
disaster requires HSES to comply with the requirements of laws and regulations contained in

3
 It should be noted that the Deputy Commissioner earned the second highest overtime amount in this disaster.
He retired promptly after the final FEMA reimbursement. The Comptroller noted in his report that the massive
amount of overtime earned would increase one’s retirement funds, should one retire soon after the earning.
Seven out of the ten highest overtime earners retired shortly after the disaster period.

www.oig.dhs.gov                                   9                                         OIG-13-23
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


the Robert T. Stafford Disaster Relief and Emergency Assistance Act and its related Federal
regulations.

                                  RECOMMENDATIONS

We recommend that the Acting Regional Administrator, FEMA Region II:

Recommendation #1: Disallow $39,391,260 (Federal share $29,543,445) of improperly
procured contract costs as ineligible, unless FEMA grants an exemption for all or part of the
costs as provided for in 44 CFR 13.43(a) and section 705(c) of the Robert T. Stafford Disaster
Relief and Emergency Assistance Act as amended. (finding A)

Recommendation #2: Disallow $9,030,634 (Federal share $6,772,976) in unsupported costs
unless the County provides adequate documentation to support these costs. (finding B)

Recommendation #3: Disallow $33,066 (Federal share $24,800) as indirect administrative
costs. (finding C)

Recommendation #4: Disallow $10,456 as duplicate expenditures. (finding D)

Recommendation #5: Develop and enforce policies and procedures to ensure that grantees
and subgrantees in the State of New York follow proper Federal procurement procedures
when expending public assistance grant funds. (finding E)

Recommendation #6: Develop and enforce policies and procedures to ensure that grantees
and subgrantees in the State of New York follow proper accounting practices and procedures
when accounting for public assistance grant funds. (finding E)

                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with County officials and included their comments in
this report, as appropriate. We held an exit conference with the County on August 17, 2012.
The County generally did not agree with our findings.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible
parties and any other supporting documentation necessary to inform us about the current
status of the recommendation. Until we receive and evaluate your response, the
recommendation will be considered open and unresolved.




www.oig.dhs.gov                             10                                   OIG-13-23
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


Consistent with our responsibility under the Inspector General Act, we will provide copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Major contributors to this report are Kaye McTighe, Division Director; Trudi Powell, Audit
Manager; and Ken Valrance, Senior Auditor.

Please call me with any questions, or your staff may contact John Kelly, Deputy Assistant
Inspector General, Office of Emergency Management Oversight, at (202) 254-4100.




www.oig.dhs.gov                            11                                   OIG-13-23
                                OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security




                                                                                          EXHIBIT A
                                Schedule of Projects Audited 

                            October 12, 2006, to October 24, 2008 

                                   Erie County, New York 

                             FEMA Disaster Number 1665-DR-NY 


                                                                                       Total
       Project       Award                                                          Questioned
       Number       Amount        Finding A     Finding B   Finding C   Finding D      Costs
         243      $ 9,221,951    $ 9,221,951                                        $ 9,221,951
         344        7,740,314      7,740,314                                          7,740,314
         600        7,103,234                  $5,447,640                             5,447,640
         330        6,121,895      6,121,895                                          6,121,895
         615        4,505,539      4,505,539                                          4,505,539
         609        4,125,064      3,927,154                                          3,927,154
         628        3,605,931                   2,190,301                             2,190,301
         342        2,244,165      2,244,165                                          2,244,165
         242        1,667,633      1,667,633                                          1,667,633
         614        1,388,830                   1,388,830                             1,388,830
         244        1,031,546      1,031,546                                          1,031,546
         208          812,306        812,306                                            812,306
         241          809,854        809,854                                            809,854
          6           769,196        769,196                                            769,196
         649          704,098                                                                 0
         675          495,070                       3,863    $33,066     $10,456         47,385
         645          475,694        475,694                                            475,694
         485          202,689         64,013                                             64,013
        Totals    $53,025,009    $39,391,260   $9,030,634    $33,066     $10,456    $48,465,416




www.oig.dhs.gov                                12                                     OIG-13-23
                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


Appendix A
Report Distribution
Department of Homeland Security

Secretary
Chief Financial Officer
Under Secretary for Management
Audit Liaison, DHS
Acting Chief Privacy Officer

Federal Emergency Management Agency

Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison. FEMA Region II
Audit Liaison, FEMA (Job Code G-12-015)

Grantee

Director, New York State Division of Homeland Security and Emergency Services
Deputy Comptroller for Local Government and School Accountability

Subgrantee

Erie County, New York

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform


www.oig.dhs.gov                          13                                 OIG-13-23
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
